Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing ServicesGrants to the City of Fitchburg, Massachusetts, Police Department
GR-70-00-005
December 13, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS) to the City of Fitchburg, Massachusetts, Police Department (Fitchburg).  Fitchburg received a total of $982,533 in COPS grants to hire 12 additional sworn police officers and redeploy one full-time equivalent (FTE) to community policing.

	Fitchburg violated the following grant condition.

Fitchburg did not document the redeployment of one FTE to community policing for the MORE 95 grant.  As a result, we question $50,045 Fitchburg received as reimbursement and recommend that the remaining $32,488 be put to a better use. 
These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.